U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT

  RECEIPT AND EXPENDITURE OF FUNDS
BY THE UTAH RECLAMATION MITIGATION
 AND CONSERVATION COMMISSION FOR
     FISCAL YEARS 1996 AND 1997

             REPORT NO. 98-I-712
              SEPTEMBER 1998
                                                                                     W-IN-OSS-001-98-M


                United States Department of the Interior
                                  OFFICE OF INSPECTOR GENERAL
                                            Washington, D.C. 20240
                                                                                       September 30, 1998

                                        AUDIT REPORT

Mr. Michael C. Weland, Executive Director
Utah Reclamation Mitigation and
    Conservation Commission
102 West 500 South - Suite #3 15
Salt Lake City, Utah 84 10 1

Dear Mr. Weland:

Subject: Audit Report on the Receipt and Expenditure of Funds by the Utah Reclamation
         Mitigation and Conservation Commission for Fiscal Years 1996 and 1997
         (No. 98-I-712)

This report presents the results of our audit of the receipt and expenditure of funds by the
Utah Reclamation Mitigation and Conservation Commission. The objective of our audit was
to determine whether the Commission received and expended mitigation and conservation
funds in compliance with Titles II, III, and IV of the Central Utah Project Completion Act.
Our audit included a review of Commission receipt and expenditure activities that occurred
during fiscal years 1996 and 1997. We performed the audit based on a July 3, 1997, request
from the Executive Director of the Commission and as a followup to our August 1996
report.’

BACKGROUND

The Reclamation Projects Authorization and Adjustment Act of 1992 (Public Law 102-575)
consisted of 40 separate titles covering a wide variety of Bureau of Reclamation projects and
activities. Titles II through VI of the Act, known as the Central Utah Project Completion
Act, provided for the orderly completion of the Project by the Central Utah Water
Conservancy District, with oversight provided by the Department of the Interior’s Central
Utah Project Completion Act Office. The Act also increased the Project’s appropriations
ceiling; provided for the construction of facilities to deliver water for irrigation, municipal and
industrial use, and instream flows to specified areas within the Project service area; and
authorized fish, wildlife, and recreation mitigation and conservation activities.


‘The Office of Inspector General survey report “Utah Reclamation Mitigation and Conservation Commission”
(No. 96-I- 11 l-2) stated that the Commission had not established adequate financial and administrative policies
and procedures and that its accounting records were not auditable (see the Prior Audit Coverage section of
this report). Title IV, Section 402(e), of the Central Utah Project Completion Act also requires the Office of
Inspector General to audit the Commission’s financial management of the Utah Reclamation Mitigation and
Conservation Account.
Title III of the Act authorized the Utah Reclamation Mitigation and Conservation
Commission to coordinate implementation of fish, wildlife, and recreation mitigation and
conservation activities among Federal, State of Utah, and local government resource
management agencies, universities, and nonprofit environmental organizations. The
Commission, which was established in 1994, is responsible for planning and administering
Federal mitigation and conservation mnding authorizations.2 Mitigation and conservation
appropriations are received through the Central Utah Project Completion Act Office and
deposited into the Utah Reclamation Mitigation and Conservation Account. The Act
authorizes the Commission to use up to $1 million annually to fund its administrative
expenses.3

Title IV of the Act established the Utah Reclamation Mitigation and Conservation Account
in the U.S. Treasury. Annual contributions into the Account are obtained from the
Department of the Interior ($5 million), the Department of Energy’s Western Area Power
Administration ($5 million), the State of Utah ($3 million), and the Central Utah Water
Conservancy District ($750,000).’ The Act requires contributions from the Department of
the Interior and the State to be deposited as principal into the Account.’ While the
contributions from the District and the Department ofEnergy are available to the Commission
for expenditures in accordance with the Act, including administrative expenses of the
Commission, the Commission may elect to deposit unexpended contributions into the
Account as principal. According to the Act, “[A]11 funds deposited as principal in the
Account shall earn interest in the amount determined by the Secretary of the Treasury on the
basis of the current average market yield on outstanding marketable obligations of the United
States of comparable maturities.” Once the Title II and Title III project authorizations
($173 million in total) are fully appropriated, the Commission will operate on future
Department of Energy contributions and on the interest earned on the principal invested in
the Account.




‘The funding consists of a $28 million authorization applicable to the Title II mitigation activities that were
previously committed to by the Bureau of Reclamation and a $145 million authorization applicable to the
Title III mitigation activities.

“Sections 301(I)(2) and 402 (b)(3)(C) of the Act limit the Commission’s administrative expenses to $1 million
annually and require the amount to be indexed proportionally each year based on the increase in the Consumer
Price Index for urban consumers, published by the Department of Labor. The Commission’s administrative
expenses were limited to $1.056 million for fiscal year 1996 and $1.086 million for fiscal year 1997.

‘Department of the Interior, State of Utah, and Central Utah Water Conservancy District contributions are
to be made through fiscal year 200 1. while the contributions from the Department of Energy will continue
into perpetuity to provide a funding source for the Commission and its successor, the Utah Division of
Wildlife Resources. In addition, the contributions from the District and the Department of Energy are to be
indexed proportionately each year based on the increase in the Consumer Price Index for urban consumers,
as published by the Department of Labor.

‘The Account principal provides a source of income to manage and maintain the investments in fish and
wildlife and recreation features of the projects performed in accordance with the Act. Funds deposited into
the Account as principal may not be withdrawn or expended for any purpose by the Commission.

                                                      2
The Commission develops and selects mitigation and conservation projects pursuant to the
requirements in Titles II and III of the Act and as adopted in the Commission’s 5-year plan!
Under the Commission’s current 5-year plan, projects are designed to address ecosystem
impacts in five Utah watersheds, such as dewatered streams and losses of bird and riparian
habitat, fish and wildlife habitat, angling opportunities, and wetlands. The Commission enters
into various agreements, such as interagency agreements and cooperative agreements, with
entities to perform the mitigation and conservation projects specified in the Act and as
outlined in the Commissions’s 5-year plan. As of September 30, 1997, the Commission
administered 55 active agreements, totaling about $32 million, with 13 cooperators. The
largest cooperative agreements, which accounted for about $3 1 million, are with the Central
Utah Water Conservancy District, the Bureau of Reclamation, the Department of
Agriculture’s U.S. Forest Service, and the State of Utah’s Division of Wildlife Resources.
During fiscal years 1996 and 1997, the Commission received Federal appropriations and
contributions totaling about $58.5 million, obligated and expended about $2 million for
Commission administration, awarded about $20.6 million for mitigation and conservation
projects, and invested about $28.3 million (Appendix 2). The remaining $7.6 million was
unobligated at the time of our review.

SCOPE OF AUDIT

Our fieldwork was conducted at the Commission’s office in Salt Lake City, Utah, from
November 1997 through April 1998. To accomplish our objective, we reviewed the Central
Utah Project Completion Act and related legislative history and legal documents; the
Commission’s 5-year plan; and receipts of appropriations and contributions, financial reports
and supporting accounting records, and administrative and cooperative agreement
expenditures for fiscal years 1996 and 1997.’ In addition, we visited the Kamas fish hatchery
project and lands acquired by the Commission for the Provo River restoration project. We
also interviewed officials from the Commission; the Bureau ofReclamation’s Upper Colorado
Region and the Ofice of the Solicitor’s Intermountain Region in Salt Lake City; and the
U.S. Department of the Treasury in Washington, D.C. The purpose of the interviews was to
obtain clarification of the Act and an understanding of the Commission’s mitigation and
conservation program, accounting system and financial reports, investments of Title IV
contributions, and deposits at the Treasury.




“The Act required the Commission to adopt a comprehensive 5-year operating plan through a prescribed
public planning process and consultation with Federal and state agencies. According to the Act, the plan was
to consist of the specific objectives and measures that the Commission intended to administer, and only those
projects included in the plan could be implemented. The initial 5-year plan was adopted in May 1996 and
is updated annually with a comprehensive rev.iew of projects and priorities every 5 years.

‘We reviewed expenditures related to Commission administration and six cooperative agreements. which
consisted of two agreements with the District and one agreement each with the Bureau of Reclamation: the
U.S. Forest Service: the State of Utah’s Division of Wildlife Resources; and the University of Nevada at Reno,
Nevada.

                                                      3
Our audit was made in accordance with the “Government Auditing Standards,” issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that were considered necessary to accomplish our objective. We
also evaluated the Commission’s system of internal controls related to the receipt of
appropriations and contributions and the expenditure of administrative and mitigation and
conservation project funds. We identified an internal control weakness pertaining to the
Commission’s administration of certain cooperative agreements with the Central Utah Water
Conservancy District. We also found that the Commission had not submitted the annual
reports required under the Act. These weaknesses and recommended corrective actions are
discussed in the Results of Audit section of this report. The recommendations, if
implemented, should improve the internal controls in these areas. We also noted minor issues
related to accounting and financial reporting that will be reported to the Commission in a
separate letter.

PRIOR AUDIT COVERAGE

The General Accounting Office has not conducted any audits of the Commission. However,
in August 1996, the Office of Inspector General issued the report “Utah Reclamation
Mitigation and Conservation Commission” (No. 96-I- 1114) which concluded that the
Commission had not established adequate financial and administrative policies and procedures
and that the Commission’s accounting records of the receipt and expenditure of funds for
fiscal years 1994 and 1995 were not auditable. As a result, we could not determine whether
the Commission’s funds were expended in accordance with the Act. The report did not
contain any recommendations because the Commission was taking corrective actions to
implement sound financial and administrative systems. The Commission also had contracted
with a certified public accounting firm for financial management and accounting services,
which included assisting the Commission in the development of fiscal accounting, budgeting,
contracting, and investing procedures. Our current audit found that the accounting firm had
provided financial management and accounting services and that the Commission had hired
a financial officer, who has made significant improvements to the Commission’s financial
management system. We also found that the Commission’s accounting records were
auditable and that financial and accounting policies and procedures were being established.


                             RESULTS OF AUDIT

We determined that the Commission received, expended, and awarded mitigation and
conservation funds in compliance with Titles II, III, and IV of the Central Utah Project
Completion Act. Specifically, for fiscal years 1996 and 1997, the Commission received and
properly accounted for the annual contributions and appropriations, authorized and expended
funds for appropriate Commission administrative activities and mitigation and conservation
projects, complied with the Act’s annual limitation on administrative expenses, and properly
invested contributions. However, in administering funds awarded to the Central Utah Water
Conservancy District under certain cooperative agreements, the Commission did not (1)
obtain copies of single audit reports or sufficient documentation on the Federal funds

                                             4
expended by the District to substantiate that the funds were used for intended purposes; (2)
limit cash advances to immediate disbursement needs; and (3) collect interest earned on the
advance funds, as required by the Single Audit Act and the Department of the Treasury’s
Financial Manual. In addition, the Commission did not meet the reporting requirements of
the Central Utah Project Completion Act. These conditions occurred primarily because
Commission officials were not fully aware of all of the Single Audit Act requirements,
received differing interpretations from Department of the Interior personnel as to the
applicability of the Treasury Manual requirements, and had what they considered to be higher
priorities which precluded the Commission from meeting the annual reporting requirement.
As a result, the Commission did not ensure that District expenditures totaling about
$1.7 million were made in accordance with the terms and conditions of the cooperative
agreements, that funds advanced to the District were limited to immediate disbursement
needs, and that interest of about $55,000 earned on excess advances was recovered. In
addition, the Congress and other Federal and State officials may not be aware of the
mitigation and conservation measures planned and implemented or of the effectiveness of
these measures because the annual reporting requirements of the Act were not met.

Single Audits

The Commission did not obtain copies of single audit reports or sufficient information to
determine whether the District expended Commission funds in accordance with the terms and
conditions of the cooperative agreements. The Single Audit Act of 1984, as amended,
requires that recipients of Federal financial assistance in excess of $300,000 obtain an
organizationwide audit to determine whether (1) their financial statements fairly present their
financial position in accordance with generally accepted accounting principles, (2) their
internal control systems provide reasonable assurance that they are managing Federal financial
assistance programs in accordance with applicable laws and regulations, and (3) they have
complied with laws and regulations which may have a material effect on their financial
statements. The audits performed under the Single Audit Act identify reportable conditions*
or material weaknesses’ in the cooperators’ internal control structure, which are presented
to the cooperators’ management, along with recommendations for corrective actions.

We found that the District and the State of Utah, which included the Division of Wildlife
Resources, were audited under the Single Audit Act for funds expended in fiscal years 1995
through 1997. However, the Commission’s Financial Officer told us that she was not aware
that the Commission should obtain copies of the audit reports as a funding agency. As a



“Reportable conditions are matters coming to the auditor’s attention that should be communicated to agency
management. These matters relate to significant deficiencies in the design or operation of the agency’s
internal control structure that could adversely affect the agency’s ability to record, process, summarize. and
report financial data consistent with the assertions of management in the financial statements.

9A material weakness is a reportable condition in which the design or operation of one or more of the specific
internal control structure elements does not reduce to a relatively low level the risk that errors or irregularities
in amounts that would be material to the financial statements being audited may occur and not be detected
in a timely period by employees in the normal course of performing their assigned functions.

                                                         5
result of our audit, the Financial Oficer obtained copies of the District’s single audit reports
for fiscal years 1996 and 1997 and the State of Utah’s single audit reports for fiscal years
1995 and 1996.

We reviewed the single audit reports for both entities and concluded that the reports did not
contain sufficient details to ensure that the funding provided by the Commission was included
in the audits. Therefore, we believe that the Commission should obtain additional information
on project expenditures. In that regard, we found that the Division of Wildlife Resources was
providing the Commission with adequate supporting documentation for the project costs
incurred but that the District was not providing such documentation. For example, the
Commission’s accounting records indicated that the District had acquired land valued at about
$958,000 in 1997 under a cooperative agreement, but the District had not provided any
supporting documentation for the acquisition.

The Commission’s Executive Director stated that the Commission did not apply the same
level of accountability for one of the cooperative agreements with the District as that applied
to the other agreements with the District and with other cooperators because the Central Utah
Project Completion Act specifically directed the District to construct a water development
project for which the Commission was required to contribute funding.” The Commission’s
Project Manager also stated that requiring additional documentation for District costs would
result in duplicate record keeping by the Commission and the District. However, we believe
that since the Commission had entered into a cooperative agreement with the District, the
Commission should ensure that District costs are properly accounted for. For example, we
found that the other cooperators we reviewed had provided the Commission with supporting
documentation, such as computer printouts of project costs and copies of invoices and payroll
records. This supporting documentation was sufficient for the Commission’s Financial
Officer and project coordinators to approve and process the cooperators’ reimbursement
requests. Accordingly, we believe that the Commission has not obtained sufficient supporting
documentation to ensure that District costs totaling about $1.7 million’ as of December 3 1,
1997, were in accordance with the terms and conditions of the cooperative agreements.

Advances of Funds

The Commission did not ensure that the funds advanced to the District under cooperative
agreements were used in a timely manner. Volume 1, Part 6, Section 2025, of the Department
of the Treasury Financial Manual, applicable to all Federal agencies, requires that advances
to a recipient organization be limited to the minimum amounts necessary for immediate
disbursement needs and that the timing of the cash advance be as close as administratively
feasible to the actual disbursement by the recipient organization. However, the Commission’s


“Section 303(b)(J) of the Act requires the Commission to provide $10.5 million to the District for the
construction of the Daniels Creek Replacement Pipeline ($10 million) and for the leasing of water
($.5 million) as a part of the Wasatch County Water Efficiency Project.

“The District claimed total project costs of $1.9 million as of December 3 1. 1997. The District’s single audit
report for the fiscal year ended June 30, 1997, identified Commission project costs of about $.2 million.

                                                       6
cooperative agreements with the District do not require that advances be limited to immediate
needs, including one agreement which states that the Commission will advance all
appropriated funds within 30 days of the Federal appropriation. The Commission’s
Executive Director stated that funds were paid to the District because the Central Utah
Project Completion Act required the Commission to contribute funds for the construction of
a water development project. However, we noted that neither the Act nor the applicable
appropriation acts provided for advance payment of project funds. As of December 3 1,1997,
the Commission had advanced about $5.5 million to the District, of which the District had
reported expenditures of only about $1.9 million. Accordingly, at the time of our audit, the
Commission had advanced about $3.6 million more than would have been required to
reimburse the District for work performed under the cooperative agreements.

Collection of Interest

The Commission did not collect the interest earned on the funds advanced to the District.
Volume 1, Part 6, Section 2075.3 Oa, of the Treasury Manual requires that any interest earned
by a recipient organization on Federal funds be promptly refunded to the Federal program
agency. Section 2075.30b of the Treasury Manual also requires that the Federal program
agency deposit the interest earned into a Treasury receipt account. The Commission’s
cooperative agreements with the District require that the District provide quarterly reports
on the interest earned on funds advanced and supporting bank statements. However, the
District had not provided the Commission with adequate documentation on the interest
earned or the supporting bank statements. Contrary to Treasury requirements, the
cooperative agreements also indicated that the interest earned on the advances would be
considered supplemental funds of the District to be used for the performance of work under
the terms and conditions of the agreement. Commission officials told us that they had not
collected the interest earned because they had received differing interpretations from Bureau
personnel as to the applicability of the Treasury Manual requirements to the Central Utah
Project Completion Act. Accordingly, the Commission was not certain whether the interest
earned was to be used for project purposes, retained by the Commission, or returned to the
Treasury. As a result of our audit, the Commission’s Financial Officer obtained bank
statements and supporting documentation from the District through December 3 1, 1997,
which showed that the Commission should have recovered interest totaling about $55,000
earned on the advances, which according to Treasury Manual requirements, should be
remitted to the Treasury.

Annual Reporting Requirements

The Commission did not complete or submit the annual reports required by the Central Utah
Project Completion Act. Section 301(g)(6) of the Act requires the Commission to submit
annual reports to the Secretary of the Interior, the Governor of the State of Utah, the Senate
Committee on Energy and Natural Resources, and the House of Representatives Committees
on Interior and Insular Affairs and on Merchant Marine and Fisheries. The reports are to
describe actions taken and to be taken by the Commission, the effectiveness of the mitigation
and conservation measures implemented to date, and potential revisions or modifications to
the applicable mitigation and conservation plan. The reports were due on December 1 for
1995, 1996, and 1997. The Commission’s Executive Director told us that the reports had not
been submitted because of other higher priorities of the Commission, which included the
Commission’s involvement in preparing the 5-year plan, implementing financial and
administrative policies and procedures, and meeting financial reporting requirements. The
Executive Director also stated that much of the information required for the annual reports
had been included in the Commission’s 5-year plan and quarterly financial reports. A “draft”
cumulative report through September 30, 1997, was prepared by the Commission’s Public
Information Officer but had not been approved by the Executive Director or the
Commissioners at the completion of our audit. As a result, the Congress, the Secretary of the
Interior, and the Governor of Utah may not be fully aware of the mitigation and conservation
measures that are planned or that have been performed by the Commission and the
effectiveness of such measures.

Recommendations

We recommend that the Commission’s Executive Director:

        1. Obtain annual single audit reports from those cooperators which receive Federal
financial assistance of more than $300,000 per year to substantiate that the costs were
incurred for mitigation and conservation project purposes and to identify reportable
conditions or material weaknesses. If the reports do not contain sufficient details to
determine whether the tinds provided by the Commission were included in the audit, the
Commission should require the cooperators to provide supplemental supporting
documentation of project costs.

        2. Request additional supporting documentation from the Central Utah Water
Conservancy District to substantiate that costs of $1.7 million were incurred by the District
in accordance with the terms and conditions of the cooperative agreements.

        3. Amend cooperative agreements with the District to limit the advances ofmnds and
the timing of the advances to the District’s immediate funding needs.

        4. Ensure that the District provides quarterly interest earnings reports and supporting
bank statements in a timely manner.

       5. Amend cooperative agreements with the District to require that the interest earned
on cash advances be remitted to the Commission for deposit in the Treasury.

         6. Recover the $55,000 of interest earned on funds advanced to the District and
remit it to the Treasury.

        7. Complete and submit the required annual reports to the Congress and other
Federal and State officials.
Utah Reclamation Mitigation and Conservation Commission Response and
Office of Inspector General Reply

In the September 25, 1998, response (Appendix 3) to the draft report from the Executive
Director, Utah Reclamation Mitigation and Conservation Commission, the Commission
agreed with all of the recommendations. Based on the response, we consider the seven
recommendations resolved but not implemented.         Accordingly, the unimplemented
recommendations will be referred to the Assistant Secretary for Policy Management and
Budget for tracking implementation, and no further response to the Office of Inspector
General is required (see Appendix 4).

The legislation, as amended, creating the Office of Inspector General, requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement audit recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Commission personnel in the conduct of our audit.


                                              Sincerely,



                                              Robert J. Williams
                                              Assistant Inspector General
                                                for Audits


cc: Commissioners, Utah Reclamation Mitigation and
       Conservation Commission
    Program Director, Central Utah Project Completion Act Office
                                                 APPENDIX 1



              CLASSIFICATION OF MONETARY AMOUNTS


                                                Funds To Be
                Finding Area                 Put To Better Use

Collection of Interest                             $55,000




                               10
                                                                                         APPENDIX 2

         SOURCES AND USES OF UTAH RECLAMATION
     MITIGATION AND CONSERVATION COMMISSION FUNDS
              FOR FISCAL YEARS 1996 AND 1997



Sources:                                                                    Amounts

     Federal Appropriations:
       Title II Projects                                     $4,832,000
       Title III Projects                                    25,371,OOO          $30,203,000

         Annual Contributions (Title IV):
            U. S. Department of Interior                     1 o,ooo,ooo
            U.S. Department of Energy*                       10,715,000
            State of Utah                                     6,000,OOO
            Central Utah Water Conserv. District*             1.606,700            28,321.700

                       Total                                                      $58,524,700

Uses:
         Commission Administrative: *
            Expenditures                                      2,004,204
            Unobligated                                         137.896             2,142,100

        Mitigation and Conservation Projects:
           Expenditures and Obligations                      20,6 15,08 1
           Unobligated                                        7.4453819           28,060,900

        Investment                                                                28,321,700

                       Total                                                      $58,524,700




*Sections 102(b)(3)(C) and 301(I)(2) of Public Law 102-275 state that the annual contributions and
Commission administration expenses “shall be increased proportionally on March 1 of each year by the same
percentage increase during the previous calendar year in the Consumer Price Index for urban consumers.
published by the Department of Labor.”




                                                   11
                                                                                                         AYY'ENUIX 3
,                                                                                                        Page 1 of 4
    L~TAH KECLAb1ATION
                                                                                                  CoMMlssIoNERs
                                                                                           Don A. Christiansen, Chairman
    MITIGATION                     102 West 500 South #3 15, Salt Lake City, Utah 84 101
                                        Phone 801 524-3146 . Fax 801 524-3148
                                                                                             Jody Wdliams, Vfce Chair
                                                                                                   Bob Nelson
    ,+I?JNI CONSEKL'ATIOr‘~
    COMMISSION                                                                                     Bob Valentrne
                                                                                                  Wayne Owens




    September 25, 1998



    Mr. Robert Williams
    Assistant Inspector of Audits
    U.S. Department of the Interior
    Office of the Inspector General
    1849 C Street, NW MS 5341
    Washington, DC 20240

    Subject:       Draft Audit Report on the Receipt and Expenditure of Funds by the Utah
                   Reclamation Mitigation and Conservation Commission for Fiscal Years 1996 and
                   1997 (Assignment No. W-IN-OSS-00 l-98-M)

    Dear Mr. Williams:

    The Utah Reclamation Mitigation and Conservation Commission greatly appreciates the time
    and effort of your office in completing subject audit report. As a new agency established in July
    1994 with unique statutory authorities, we had requested this audit to ensure that the financial
    management system we are developing will consistently provide an accurate and timely account
    of public funds. This report confirms that we have been successful in accomplishing that
    objective, and the fmdings and recommendations for improvements contained within it provide
    the guidance we had requested.

    We appreciate the opportunity to respond, and we offer the following comments in response to
    the recommendations. Additional comments on the text of the report are also attached.

    Recommendation 1
    Obtain annual single audit reports from those cooperators who receive Federal financial
    assistance of more than $300,000 per year to substantiate that the costs were incurred for
    mitigation and conservation project purposes and to identify reportable conditions or material
    weaknesses. If the reports do not contain sufficient details to determine whether the funds
    provided by the Commission were included in the audit, the Commission should require the
    cooperators to provide supplemental supporting documentation of project costs.

           ResDonse
           Concur. The Commission will obtain annual single audit reports from all cooperators
           who receive Federal assistance of more than $300,000 per year and will ensure that
           sufficient documentation is included in each single audit report. The anticipated date for
           compliance is December 3 1, 1998.


                                                         12
                                                                                       APPENDIX 3
                                                                                       Page 2 of 4



Recommendation 2
Request additional supporting documentation from the Central Utah Water Conservancy District
to substantiate that costs of $1.7 million were incurred by the District in accordance with the
terms and conditions of the cooperative agreements.

       Remonse
       Concur. The Commission will request additional supporting documentation from the
       Central Utah Water Conservancy District to substantiate approximately $400,00 of costs
       incurred under existing agreements, with the exception of the WCWEP/DRP project
       agreement for which such reporting would not be required under the proper form of
       agreement [See Response to Recommendation 3 below]. The anticipated date for
       compliance is December 3 1,1998.

Recommendation 3
Amend cooperative agreements with the District to limit the advances of f&ds and the timing of
the advances to the District’s immediate funding needs.


       Concur. The Commission will amend cooperative agreements with the District to limit
       advances for funds and the timing of the advances to the District’s immediate funding
       needs. In addition, the Commission’s legal counsel has advised that, due to the unique
       contracting requirements in CUPCA, the Commission should re-execute the
       WCWEP/DRP project agreement using a different form of agreement rather than the
       Cooperative Agreement form, which contains several requirements specific to that form
       of agreement that were not applicable to the WCWEP/DRP project agreement. The intent
       and nature of the agreement among the District, the Department, and the Commission
       regarding the Commission’s responsibilities under CUPCA for contributing to the
       WCWEP/DRP project were therefore not accurately described by the Cooperative
       Agreement form. The Cooperative Agreement form will be replaced with a new
       agreement that will be written and re-executed to more clearly provide that the payment
       of tids from the Commission to the District are payments for consideration received and
       not advances for work yet to be performed, and thus all interest earned on such payments
       accrues to the District and not to the Commission. This will eliminate the impression
       created by the Cooperative Agreement form that the Commission’s involvement in the
       District’s WCWEP/DRP water development project is the same as the Commission’s
       relationship and responsibilities under other agreements with the District and other
       cooperators for implementation of mitigation projects. The anticipated date for
       compliance is December 3 1,1998.

Recommendation 4
Ensure that the District provides quarterly interest earnings reports and supporting bank
statements in a timely manner.




                                                13
                                                                                     APPENDIX 3
                                                                                     Page 3 of 4



       ResDonse
       Concur. The Commission will ensure that the District provides quarterly interest
       earnings reports and supporting bank statements in a timely manner. The anticipated date
       for compliance is December 3 1, 1998.

Recommendation 5
Amend cooperative agreements with the District to require that the interest earned on cash
advances be remitted to the Commission for deposit in the Treasury.

       ResDonse
       Concur. The Commission will amend cooperative agreements with the District to require
       that the interest earned on cash advances be remitted to the Commission for deposit in the
       Treasury. The anticipated date for compliance is December 3 1, 1998.

Recommendation 6
Recover the $55,000 of interest earned on funds advanced to the District and remit it to the
Treasury.


       Concur. The Commission will recover the interest earned on funds properly advanced to
       the District and remit that amount to the Treasury. Note: Approximately $41,000 of the
       interest earned on funds advanced to the District was attributable to the Commission’s
       mistaken use of the Cooperative Agreement form to transfer the Commission’s mandated
       contribution to the WCWEPLDRP project. As noted in No. 3 above, the Cooperative
       Agreement form contained incorrect terms with respect to the nature of the payments and
       interest. The replacement agreement will provide that interest earned on the payments
       previously paid and yet to be paid to the District belong to the District. The anticipated
       date for compliance is December 3 1, 1998.

Recommendation 7
Complete and submit the required annual reports to the Congress and other Federal and State
officials.

       Response
       Concur. The Commission will complete and submit the required Fiscal Year 1998 annual
       report to Congress and other Federal and State offkials. Note: The Fiscal Year 1998
       annual report will include information from the inception of the Commission in Fiscal
       Year 1994 through the end of Fiscal Year 1998. The anticipated date for compliance is
       December 1, 1998.

Thank you again for your efforts. As Executive Director of the agency, I will be the official
responsible for compliance with the commitments made in response to these recommendations.


                                                                                                3


                                               14
                                                                                   APPENDIX 3
                                                                                   P a g e 4 of 4




If you have any questions or require additional information, please contact me or Channa
Vyfiinkel, Financial Officer, at (801) 524-3 146.




Michael C. Weland
Executive Director

Attachment

cc:    Commissioners
            Don Christiansen, Chairman
            Jody Williams, Vice Chair
            Bob Valentine
            Wayne Owens




                                               15
                                                                    APPENDIX 4




         STATUS OF AUDIT REPORT RECOMMENDATIONS


    Finding
Recommendation
   Reference              Status                  Action Required


  1, 2, 3, 4, 5,   Resolved; not   No further response to the Office of Inspector
    6, and 7       implemented     General is required. The recommendations
                                   will be referred to the Assistant Secretary for
                                   Policy, Management and Budget for tracking
                                   of implementation.




                                   16
                ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                    Calling:



                     Within the Continental United States

U.S. Department of the Interior                       Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   l-800-424-508 1 or
Mail Stop 5341                                        (202) 208-5300
Washington, D. C . 20240


                                                      TDD for hearing impaired
                                                      (202) 208-2420 or
                                                      l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Repion

U.S. Department of the Interior                       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific Retion

U.S. Department of the Interior                         (67 1) 647-605 1
Offke of Inspector General
North Pacific Region
415 chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 1-800-424-5081          1,
 TDD l-800-354-0996      5
                         5
                         5
FTSKommerciai Numbers:
 (202) 208-5300          E
 TDD (202) 208-2420      E


 HOTLINE !
1849 C Street, N.W.      E
                         L’
Mail Stop 5341
Washington. D.C. 20240
